     DEPARTMENT OF HOMELAND SECURITY
            Office of Inspector General


            Review of DHS Component Plans of 

            Action and Milestones for Financial 

                     System Security 





OIG-08-63                            June 2008
                                                                        Office of Inspector General

                                                                        U.S. Department of
                                                                        Homeland Security
                                                                        Washington, DC 20528




                                  June 4, 2008


                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report summaries the results of KPMG observations and provides the CIO and CFO
with recommendations based on best practices to help enhance the existing POA&M process
at the DHS components. The independent accounting firm KPMG LLP (KPMG) performed
the review of the DHS POA&Ms in an effort to support DHS’ compliance with the
Department of Homeland Security Financial Accountability Act of 2004 (DHS FAA), which
requires DHS to obtain an ICOFR audit opinion. KPMG is responsible for the attached
report dated May 13, 2008 and the conclusions expressed in it.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report




                                      Richard L. Skinner 

                                      Inspector General 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
